DOE/IG-0498




          AUDIT                    BECHTEL JACOBS COMPANY
                                     LLC'S MANAGEMENT AND
         REPORT                    INTEGRATION CONTRACT AT
                                            OAK RIDGE




                                             MARCH 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                                              March 21, 2001



MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman (Signed)
               Inspector General

SUBJECT:       INFORMATION: Audit Report on "Bechtel Jacobs Company LLC's Management and
               Integration Contract at Oak Ridge"

BACKGROUND

In December 1997, the Oak Ridge Operations Office entered into a $2.5 billion management and
integration contract with Bechtel Jacobs Company LLC (Bechtel Jacobs) for environmental remediation
activities at Department of Energy (Department) sites in Oak Ridge, Tennessee; Portsmouth, Ohio; and
Puducah, Kentucky. A primary objective was to accelerate cleanup activities and maximize cost
effectiveness. To this end, the Department chose a strategy in which the contractor was to rely on
competitively-awarded, fixed-price subcontracts for much of the work. The Department, based on its
experience, anticipated that the use of competitive, fixed-price subcontracts would result in improved
performance and cost savings. In response to the request for proposals, Bechtel Jacobs stated that it would
subcontract just over 90 percent of the work to be performed and reduce staffing by about 80 percent,
through transitioning staff to subcontracts. This was to be achieved within two years of the contract award.
These factors were, in large part, the basis of the award to Bechtel Jacobs.

The objective of this audit was to determine whether Bechtel Jacobs met these commitments.

RESULTS OF AUDIT

Bechtel Jacobs did not use competitive, fixed-price subcontracts or reduce staffing to the extent proposed.
In fact, as of September 30, 2000, nearly three years after award of the contract, Bechtel Jacobs had
subcontracted less than 60 percent of the original work scope. Further, the contractor had reduced staffing
through transition to the subcontractors by only 58 percent. The audit disclosed that the Oak Ridge
Operations Office had not incorporated these requirements in the Bechtel Jacobs contract, limiting the
Department's ability to hold the contractor accountable for achieving these goals. Bechtel Jacobs, in an
attempt to explain the disconnect between its original proposal and actual performance, stated that
managing and integrating the work was more difficult than anticipated. We concluded, however, that the
Department could have saved an additional $44.1 million in Fiscal Year 2000 had Bechtel Jacobs met the
initial terms of its proposal.
MANAGEMENT REACTION

Management disagreed with the audit conclusions but concurred in the recommendations. Management
stated that the audit failed to take into account that the Bechtel Jacobs contract was a "first of a kind" award
for the Department with significant subcontracting and workforce transitioning provisions. Management
also contended that Departmental policy decisions impacted the contractor's ability to meet its
subcontracting goals. Also, management believed that the audit should have focused on compliance with
the actual contract provisions rather than statements made during the source selection process.

In our audit work, we were cognizant of the fact that the Bechtel Jacobs contract includes unique
subcontracting and workforce transition provisions. With regard to the contention that the Department's
actions impacted the contractor's ability to meet the subcontracting goals, based on the information
available, there was no practical way to confirm that this was the case and, if so, the extent to which it was a
factor in the situation. Bechtel Jacobs' made specific commitments regarding subcontracting and staffing
during the contractor selection phase of the award process. Because these were significant considerations in
the award of the $2.5 billion contract to Bechtel Jacobs, we believe that the contract should have included
formal performance expectations reflecting the contractor's commitments.

Attachment

cc: Director of Procurement and Assistance Management
BECHTEL JACOBS COMPANY LLC'S MANAGEMENT AND
INTEGRATION CONTRACT AT OAK RIDGE

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations.................................................. 1


               Subcontracting and Workforce Transitioning

               Details of Finding.......................................................................3

               Recommendations and Comments ...........................................5


               Appendix

               Scope and Methodology.............................................................8
OVERVIEW

INTRODUCTION AND   Over the past decade, a recurring theme of internal and external reviews
OBJECTIVE          has been the Department of Energy's (Department's) need to improve its
                   contracting practices. In response, the Secretary of Energy created a
                   Contract Reform Team (Team) to look at the complete range of the
                   Department's contracting practices. In February 1994, the Team issued
                   Making Contracting Work Better and Cost Less: Report of the Contract
                   Reform Team, which identified increased competition as one of the
                   main elements of contract reform.

                   In order to increase competition, the Department has structured a
                   number of recent solicitations for management contracts (e.g., Rocky
                   Flats Environmental Technology Site, 1995; Hanford Site, 1996; and
                   Savannah River Site, 1996) to foster teaming arrangements. One type
                   of teaming arrangement is the management and integration (M&I)
                   contract. Under this type of contract, a contractor with specialized
                   project integration skills manages the site, overseeing and integrating
                   the work performed by a number of specialized subcontractors.

                   In December 1997, the Oak Ridge Operations Office (Operations
                   Office) entered into a $2.5 billion M&I contract with Bechtel Jacobs
                   Company LLC (Bechtel Jacobs) to clean up Department sites in Oak
                   Ridge, Tennessee; Portsmouth, Ohio; and Paducah, Kentucky over a
                   5 ½ year period. One of the primary objectives of the contract was to
                   accelerate cleanup and maximize cost effectiveness through the use of
                   competitive, fixed-price subcontracts. In response to the request for
                   proposals, Bechtel Jacobs stated that it would subcontract 93 percent of
                   the work and reduce staffing by about 82 percent within the first
                   2 years. The contract was awarded to Bechtel Jacobs, based in part, on
                   these commitments.

                   The objective of this audit was to determine whether Bechtel Jacobs
                   used competitive, fixed-price subcontracts and reduced staffing as
                   proposed.

CONCLUSIONS AND    Bechtel Jacobs did not use competitive, fixed-price subcontracts or
OBSERVATIONS       reduce staffing as proposed. In fact, as of September 30, 2000, Bechtel
                   Jacobs had subcontracted only 58 percent of the original work scope
                   and reduced staffing by only 58 percent. This occurred because the
                   Operations Office did not contractually require Bechtel Jacobs to
                   perform to the proposed levels. In addition, Bechtel Jacobs stated that
                   managing and integrating the work was more difficult than anticipated.
                   The Department could have saved an additional $44.1 million in Fiscal



Page 1                                                      Introduction and Objective/
                                                         Conclusions and Observations
         Year (FY) 2000 had Bechtel Jacobs subcontracted the work and reduced
         staffing as proposed.

         The Office of Inspector General (OIG) is currently performing a separate
         audit to determine whether the Operations Office held Bechtel Jacobs
         accountable for achieving performance objectives included in the M&I
         contract. Bechtel Jacobs received about 98 percent of the available fee
         in FY 1999. Also, the OIG performed an audit of Bechtel Jacobs'
         implementation of contractual payroll creation provisions in FY 1999.
         The OIG concluded in report ER-B-99-06, Audit of Bechtel Jacobs
         Payroll Creation (April 1999), that the Department could not determine
         if Bechtel Jacobs met its new payroll commitment.

         The current audit identified issues that management should consider
         when preparing its yearend assurance memorandum on internal controls.




                                                       Signed
                                             Office of Inspector General




Page 2                                         Conclusions and Observations
SUBCONTRACTING AND WORKFORCE TRANSITIONING


Bechtel Jacobs Did     Bechtel Jacobs did not use competitive, fixed-price subcontracts or
Not Perform to the     reduce staffing as proposed. As of September 30, 2000, only 58 percent
Levels Proposed        of Bechtel Jacobs' original work scope was subcontracted, and only
                       58 percent of the employees were transitioned to subcontractors.

                       Although Bechtel Jacobs proposed to subcontract 93 percent of the
                       work, only 58 percent of the original work scope was actually
                       subcontracted. For the remaining 42 percent of the work scope, Bechtel
                       Jacobs used contracts established by the Department with other
                       contractors at the Oak Ridge Reservation, Portsmouth, and Paducah to
                       perform 24 percent of the work on a cost reimbursement basis. The
                       work performed by the other Department contractors included a wide
                       variety of areas such as environmental monitoring, technical support,
                       and dosimetry services. Bechtel Jacobs performed the remaining
                       18 percent of the work. Originally, Bechtel Jacobs planned to perform
                       7 percent of the work including general program support, project
                       support, and project execution activities. However, after the contract
                       was awarded, Bechtel Jacobs began to perform work in several other
                       areas including East Tennessee Technology Park fire, security, and
                       emergency duties.

                       Further, Bechtel Jacobs only transitioned 58 percent of the workforce to
                       subcontractors despite its proposal to keep the staffing level to fewer
                       than 400 employees, which would have been an 82 percent reduction.
                       As of September 30, 2000, Bechtel Jacobs' staffing level had decreased
                       to 910, which is 510 more employees than Bechtel Jacobs originally
                       proposed. About 144 of the 510 employees were performing work
                       Bechtel Jacobs originally planned to subcontract. Also, new work
                       scope performed at the Operations Office's direction accounted for
                       another 134 employees. The remaining 232 employees were
                       performing core functions such as procurement and project
                       management.

                       According to the request for proposals, one of the primary objectives of
A Primary Objective    the M&I contract was to accelerate cleanup and maximize cost
Was to Accelerate      effectiveness through the use of competitive, fixed-price subcontracts.
Cleanup and Maximize   In response to the request for proposals, Bechtel Jacobs stated that it
Cost Effectiveness     would subcontract 93 percent of the work scope and reduce staffing by
                       about 82 percent within the first 2 years. The Source Evaluation Board
                       (SEB) evaluated all proposals received in response to the request for
                       proposals, and determined that Bechtel Jacobs' proposal was the most
                       advantageous to the Government.



Page 3                                                                      Details of Finding
                              The proposals were evaluated to determine the extent they
                              demonstrated a thorough understanding of, and capability to
                              successfully accomplish, the statement of work focusing on the Oak
                              Ridge 2006 Plan. Strengths and weaknesses of the proposals were
                              evaluated based on the following five factors and the weights
                              assigned to each in the evaluation process:

                                            Factors                      Percentage Weight

                              Technical Approach                                  30

                              Management and Organization                         30

                              Community Investment                                20

                              Transition Plan                                     15

                              Corporate Experience and Past                        5
                              Performance


                              The SEB considered Bechtel Jacobs' commitment to subcontract
                              93 percent of the work to be a strength of its technical approach. The
                              SEB also considered Bechtel Jacobs' commitment to reduce staffing
                              by about 82 percent to be a management and organizational strength.

                              Bechtel Jacobs did not perform at the levels it originally proposed
Performance at the
                              because (1) the Operations Office did not contractually require
Proposed Levels was Not
                              Bechtel Jacobs to perform at the proposed levels, and (2) Bechtel
Contractually Required, and
                              Jacobs stated managing and integrating the work was more difficult
Bechtel Jacobs Stated
                              than anticipated.
Managing and Integrating
the Work was Difficult
                              The Operations Office did not develop contractual requirements or
                              incentives to ensure Bechtel Jacobs worked to the proposed levels.
                              Although the Operations Office established performance measures in
                              accordance with the Government Performance and Results Act of
                              1993, attaining these performance measures would not ensure that
                              the objectives of the contract would be met. Subcontracting and
                              workforce transitioning were two of the primary objectives of the
                              contract; however, specific amounts for each factor were not
                              included as contractual requirements or performance-based
                              incentives when the contract was awarded. As a result, there was
                              little incentive for Bechtel Jacobs to maximize cost effectiveness
                              through the use of competitive, fixed-price subcontracts or staff
                              reductions.

Page 4                                                                          Details of Finding
                         The Operations Office did establish performance-based incentives
                         for Bechtel Jacobs in FYs 1999 and 2000. In FY 1999, Bechtel
                         Jacobs earned incentive fees totaling $1 million for completing the
                         FY 1999 subcontracting actions listed in its Integrated
                         Subcontracting Strategy, and earned another $1 million for reducing
                         its core staffing by 46 percent. In FY 2000, Bechtel Jacobs earned
                         incentive fees totaling $500,000 for awarding critical FY 2000
                         subcontracts. However, no performance incentives related to staff
                         reductions were established in FY 2000.

                         In addition, Bechtel Jacobs stated that it did not subcontract the work
                         to be performed or reduce staffing as proposed because managing
                         and integrating the work was more difficult than originally
                         anticipated. For example, Bechtel Jacobs stated that it was not
                         practical to subcontract some types of work, such as emergency
                         services, because complex jurisdiction and coordination issues
                         existed. Also, Bechtel Jacobs stated that it needed more legal and
                         procurement personnel than originally anticipated due to the sheer
                         number of subcontractors involved in performing the scope of work.

Department Could Have    We estimated the Department could have saved an additional
Saved $44.1 Million in   $44.1 million in FY 2000 had Bechtel Jacobs subcontracted the work
FY 2000                  and reduced staffing to the levels proposed. Bechtel Jacobs
                         estimated that for the subcontracts awarded, it expected to save
                         29.7 percent over revised baseline amounts. By applying the
                         29.7 percent rate to the work currently being performed by other
                         Department contractors and in-house, we estimated that the
                         Department could have saved an additional $19.2 million in FY 2000
                         had Bechtel Jacobs subcontracted 93 percent of its original work
                         scope. Bechtel Jacobs also proposed that 7 percent of its contract
                         costs would be spent performing core M&I functions. However,
                         Bechtel Jacobs spent $52.7 million (13 percent) in FY 2000 on core
                         M&I functions, a difference of $24.9 million.

RECOMMENDATIONS          We recommend that the Manager, Oak Ridge Operations Office:

                            1.   Ensure future M&I contracts require, or provide incentives
                                 for, performance at the levels proposed during source
                                 selection and consistent with the Department's procurement
                                 objectives;

                            2.   Direct Bechtel Jacobs to analyze work performed by other
                                 Department contractors and subcontract additional areas that
                                 could be performed on a competitive, fixed-price basis; and,

Page 5                                                  Recommendations and Comments
                          3. Direct Bechtel Jacobs to analyze core staffing levels and
                             reduce staffing in areas where additional workforce
                             transitioning could be employed.

MANAGEMENT REACTION   Management concurred with the recommendations, but disagreed
                      with the audit conclusions. Management stated that the OIG failed
                      to take into account that the Bechtel Jacobs contract was a "first of a
                      kind" award for the Department with significant and unique
                      subcontracting and workforce transition provisions, and that the
                      Department's policy decisions impacted the contractor's ability to
                      meet its subcontracting goals. Also, management believed that the
                      assumption that 29.7 percent cost savings would be achieved with
                      additional subcontracting was an inaccurate extrapolation of savings
                      from earlier awards. Finally, management believed the OIG should
                      have focused on compliance with the actual contract provisions
                      rather than statements made during the source selection process.
                      Management's specific comments, organized by recommendation,
                      are as follows:

                      Recommendation 1: Management stated that it intended to include
                      definitive requirements, as appropriate, on a case-by-case basis in
                      future contracts. Management also stated that it specifically decided
                      not to include definitive requirements for subcontracting plans,
                      workforce transitions plans, or staffing plans in the Bechtel Jacobs
                      contract based on lessons learned from earlier procurements. That
                      decision was largely due to anticipated, but undefined, specific
                      changes that would occur during the transition period. Management
                      reported that as a result of its experience with the Bechtel Jacobs
                      M&I contract, it was now in a better position to identify specific
                      requirements, which may be appropriate for incorporating into future
                      contracts.

                      Recommendation 2: Management stated it would direct Bechtel
                      Jacobs to complete a review of planned FY 2002 work to identify
                      any additional opportunities for subcontracting. The review will
                      address both Bechtel Jacobs work planned for self performance and
                      planned work authorization to UT-Bechtel, LLC and BWXT-Y12,
                      LLC and will be completed by July 2001. The results of this review
                      will be incorporated into the FY 2002 update to the Life-Cycle
                      Baseline prior to the beginning of the fiscal year, consistent with
                      approved funding, work prioritization, and sequencing.

                      Recommendation 3: Management stated that it will conduct a review
                      of Bechtel Jacobs' staffing levels to determine if there are

Page 6                                                Recommendations and Comments
                   opportunities for additional workforce transition or staffing
                   reductions. The review is planned to be completed by the end of
                   May 2001.

AUDITOR COMMENTS   Management's planned actions are considered to be responsive. We
                   acknowledge that Bechtel Jacobs' contract includes unique
                   subcontracting and workforce transition provisions; however, we
                   could not determine whether the Department's actions impacted the
                   contractor's ability to meet its subcontracting goals. Still, we believe
                   the Department should have required Bechtel Jacobs to perform to its
                   proposed levels, or to lower levels if warranted by changes in
                   Departmental policy or other factors. Also, we estimated the
                   potential cost savings based on the rate of cost savings reported by
                   Bechtel Jacobs for previous fixed-price subcontracts (29.7 percent)
                   applied to 93 percent or the original scope of work. Since the
                   Department awarded a $2.5 billion contract on the basis of Bechtel
                   Jacobs' proposal, our audit focused on the requirements that, in our
                   opinion, should have been included in the contract.




Page 7                                             Recommendations and Comments
Appendix

SCOPE         The audit was performed from September 14, 2000, to January 8, 2001,
              at the Oak Ridge Operations Office and the East Tennessee Technology
              Park. The scope of the audit included the Operations Office's
              procurement activities as well as Bechtel Jacobs' subcontracting and
              workforce transitioning activities from April 1998 through
              September 2000.

METHODOLOGY   To accomplish the audit objective, we:

                   •   Identified the Operations Offices' objectives for the M&I
                       contract;

                   •   Reviewed Federal and Department regulations governing
                       contract solicitation;

                   •   Examined Operations Office procurement files;

                   •   Evaluated the status of the workforce transition;

                   •   Analyzed the costs associated with M&I contract activities;

                   •   Calculated the amount of work Bechtel Jacobs performed
                       in-house, subcontracted out, and assigned to other Department
                       contractors;

                   •   Discussed subcontracting and workforce transitioning
                       activities with Department and contractor personnel; and,

                   •   Reviewed the Operations Office's compliance with the
                       Government Performance and Results Act of 1993.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              audit included reviews of Operations Office procurement activities as
              well as Bechtel Jacobs subcontracting and workforce transitioning
              activities. Because our audit was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. We conducted a limited reliability assessment of
              computer-processed data and found that the associated internal controls
              were adequate.



Page 8                                                     Scope and Methodology
         We held an exit conference with the Acting Chief Financial Officer,
         Oak Ridge Operations Office, on March 5, 2001.




Page 9                                               Scope and Methodology
                                                                               IG Report No. :DOE/IG-0498

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
